RB: AJ33174
"-s^.

iN THE County COURT OF OMAHA, DOUGLAS COUNTY, NEBRASKA
STATE OF NEBRASKA }

)
COUNTY OF DOUGLAS )

AFFIDAVIT AND APPLICATION FOR
ISSUANCE OF A SEARCH WARRANT
FOR CELLULAR PHONE RECORDS

The complaint and affidavit of Officer Derek MOIS, #1573 on this 8th day of May,
2018, who, being first duly sworn, upon oath says:
That the officer has probable cause to believe, and does believe that there is
concealed or kept as hereinafter described, the following property, to wit;
A. The following customer or subscriber account information for each account
registered to or associated with 402-850-5695 for the time period December 1st 2016 February 14th 2017 in Central Standard Time (CST):
1. Subscriber names, user names, screen names, or other identities;

2. Mailing addresses, residential addresses, business addresses, email
addresses, and other contact information;

3. Local and long distance telephone connection records, or records of session
times and durations;

4. Length of service (including start date) and types of services utilized;
5. Telephone or instrument number or other subscriber number or identity,
including any temporarily assigned network address;
6. Means and source of payment for such service (including any credit card or
bank account number) and billing records.
B. All records and other information relating to account(s) and time period in Part A,
including:

CRflWTRAF DIVISION
JUN a 0 2018

^.

E

RB: AJ33174

1. Records of user activity for any connections made to or from the account,
including the date, time, length, and method of connections, data transfer
volume, user name, and source and destination Internet Protocol address(es);

2. All available toll records to include call detail, SMS detaif, data sessions, per
call measurement data (PCMD), round trip time (RTT), NELOS, cell site and cell
site sector information and cellular network identifying information (such as the
IMS], MSISDN, IMEI, MEID, or ESN);
3. Non-content information associated with the contents of any communication
or file stored by or for the account(s), such as the source and destination email
addresses and IP addresses;

4. Correspondence and notes of records related to the account(s);
5. Current cellular site list, in electronic format, which includes any and all
markets, switches, and areas the target phone utilized during the time period
listed above.

That said property is concealed or kept in, on, or about the following described place or
person, to wit:
US Cellular
Attn: Custodian of Records/Subpoena Compliance
8410 W. Bryn Mawr Ave.

Chicago,

IL

That said property is under the control or custody of:

60631

CRlM/TFWW<sioN

Custodian of Records

That the following are the grounds for issuance of a
property and the reasons for the officers' belief to wit:

:<,

'iK*w*--

JUN ^ 0 Z018
:ieASlS%^

d

"0(

On December 23rd 2016 at approximately 1741 hours Omaha Police Officers were
dispatched to 18139 Tammy Trail, Omaha, Douglas County, Nebraska in reference to
the report of a shooting. Upon arrival Officers located a male victim identified as Michael
R. BRINKMAN (VWM DOB: 09/17/1966) with a gunshot wound to the chest. BRINKMAN

RB: AJ33174
V^CT..-.-

was transported to the University of Nebraska Medical Center where he later died as a
result of his injuries.
Officers determined at the time of the shooting event the victim was home with his

girlfriend Kirn MILIUS (W/F DOB: 12/20/1971) and his son Seth BRINKMAN (W/M DOB:
11/08/2000). MILIUS would state that at approximately 5:30 pm the victim and their son
Seth were getting ready to go out to eat when she answered a knock at the door.
MiLIUS would state when she answered the door and would be confronted by two
unidentified masked suspects armed with guns who began demanding money. MILIUS
stated one suspect was a black male about 5'10" to 6'0" in height, heavy set with a
"thick neck" and stubble on his face. MILiUS would state this suspect was
approximateiy 220 to 250 pounds. MJLIUS stated the second suspect was a black male
and described him as being taller and lighter than the first suspect. MILIUS described
this suspect as being approximately 6'0" to 6'3" and approximately 180 pounds.

Seth BRINKMAN would state at approximately 5:30 pm he was taking a shower
preparing to go out to dinner with his parent when he heard his mother screaming. Seth
would state he would come to see two intruders armed with handguns. Seth would
describe one suspect as being a black male approximately 6'0" to 6'1" in height and

being heavy set with a big gut and wearing a mask. Seth would describe the second
suspect as being approximately 6'1" to 6'2" and having a thinner build than the first
suspect.

During the subsequent scene investigation Investigators would locate items determined
to have been dropped by one of the suspects during the physical altercation with the
victim. Investigators and Forensic Investigations personnel would locate remnants of
fast food and packaging items, including a partially eaten piece of bread. Forensic
Technicians would collect a swab for possible DNA from the bread under EV#20.

During a canvass of the neighborhood Officers located exterior cameras on 1823Q
Tammy Trail, investigators were able to determine those cameras did cover the victim's
residence. Crime lab personnel were able to recover footage from that system which
upon review did capture what appeared to be a newer model white SUV traveling
eastbound on Tammy Trail and pull into 18139 Tammy Trail parking facing westbound at
5:33 pm at the victim's residence( just prior to the shooting event). Video then captures
the same vehicle leaving at approximately 5:41 pm. RLED
Video also shows what appears to be the same vehicle slowed ii^,(fqp^c^^^e victims
residence at 4:55 pm continues eastbound info the circle, turn around'aT^d drive back by
18139 Tammy Trail at 4:56 pm. cieris of Coui-t

DOUGLAS COUNTY COURT
'eWAEl^ NxnftARKA

RB: AJ33174

Investigators believe the vehicle in the video is a white 2015-2016 Dodge Durango SUV,
Investigators believed from prior experience that it was possible suspects could have
used a rented vehicle while committing this crime.
On December 27th 2016 EV#20, the possible DNA swab collected from the partially
eaten bread, was submitted to UNMC Human DNA Laboratory for testing,
On December 28th 2016 Officer CAHILL served a subpoena to, Budget Car rental
requesting information related to any leased 2016 Dodge Durango SUV in the Omaha
area during the time frame of December 23rd 2016. Budget Car rental would return
information that included a rental agreement to a Carnell WATT (B/F DOB: 03/17/1979)
of a 2016 Dodge Durango SUV bearing Texas plates GSB-1580 from the dates of
December 13th 2016 to December 27th 2016 (Rental Agreement : AViS RA
608359032). Affiant Officer observed within the provided rental agreement that WATT
provided a contact number of 402-739-4520. Affiant Officer learned this number is
currently assigned to Sprint Corporation.

On January 14th 2017 Officer CAHILL would conduct an interview with WATT. WATT
would acknowledge renting the aforementioned 2016 Dodge Durango SUV from
Avis/Budget on December 13th 2016. WATT would also state that during the course of
her having that vehicle she loaned the vehicle out on multiple occasions to family and
friends. WATT would state one of those people was an acquaintance by the name of
"LeeJENNINGS".
On January 23rd 2017 Investigators were notified of a mainly single source male DMA
profile was located from testing of EV#20.
On January 27th 2017 the UNMC Human DNA Laboratory submitted their findings to
the Nebraska State Patrol for COD1S entry and search.

On February 13, 2017 Investigators were notified of a possible CO^J^^enfification to

the submitted sample was that belonging to LeAndre FCQ ?'S^l^g|yg^pOB:
09/30/1987).

JUN 2 0 ;o:f8
On February 13, 2017 subsequent research utilizing th®NC^JS database, Affiant

Officer observed that JENNiNGS has a physical of 6' aRS;gJg[^^^^^}.^ 300
pounds. Affiant Officer also observed that JENNINGS was currenyy on^^?robation

beginning 04/10/2015. Affiant Officer observed JENNlNGSwas currentiy assigned to
!(

the Omaha US Probation Office under Officer Mike SLIVA. Affiant Officer spoke to

RB: AJ33174
'\^.

Officer SLIVA and he would provide a current cell phone number for JENNINGS of

402-850-5695. Affiant Officer learned this number is also currently assigned to US
Cellular.

Affiant Officer believes data held by US Ceilular will aid in determining the possible
relationship between the aforementioned individuals and provide details on the events
which lead to the death of Michael R. BRINKMAN.

From training, experience and research Affiant Officer is aware that the data
stored by cellular network providers can provide invaluable insight for criminal
investigations. Cell phones are used for communication, access to information,
socialization, research, entertainment, shopping and other functionality. In addition to
personal use, cell phones are often used as tools in criminal activity. Affiant Officer is
aware of numerous instances where cell phones were used by participants in crimes to
communicate via voice and text messaging. Affiant Officer is also aware of instances
where the cell phone was operating in the background, accessing the cell provider's
network, and generating location based data. When a cell phone interacts with the
cellular provider's network, it leaves records that allow for the identification of locations
where the cell phone accessed the network. These interactions between the cell phone
and the network can be created intentionally or accidentally by the user, or automatically
by the device itself as part of it's regular functioning.
The records being requested in Part A & B are a!I invaluable tools when
conducting investigations. Phone information, account notes, and user account
information can be used to identify and/or confirm the owner of the cell phone. Call
detail records can serve to establish familiarity between people involved in an incident.
These records contain date and time stamps that can be significant in constructing a
timeline of events regarding an investigation. The records also contain phone numbers

establishing communication between parties that are invaluable in establishing
co-conspirators, witness, and victim, and suspect information.
PCMD, NELOS, RTT data, Cell Site, and Cell Site Sector information are

invaluable during an investigation as they can associate the celt phoq^(V^Vq, being in

proximity of a location. Viewing of this data can demonstrat^^^^yi^^g^j^is
also it's user, was in a location associated with an incident.

Communication records from SMS and MMS messaging, email,, andjnternet
can Drovide insight to establish an individual's !eve! of BBiJgQSIi^Qft^isPTOAgctQe
KfjWtSA, NisanASj^ft.

regarding an investigated incident. It is not uncommon for users to send and receive

RB: AJ33174

dozens of messages a day which documents a person's activities and can aid in
completing the investigation.
Affiant Officer seeks to complete a thorough, unbiased examination of the data
stored with the cellular provider which could aid in the investigation.
Affiant Officer is requesting that this Court issue a search warrant for the
information provided in Part A and Part B which is stored with US Cellular as Affiant
Officer believes that data from the aforementioned cellular phone number will assist in
the investigation.
WHEREFORE, the officers pray that a Search Warrant may be issued according to law.

Omaha Police Officer

SUBSCRIBED AND SWORN to me this 8th day of May, 2018.

K.

^K-

^

Judge of the County Court

CRI^^s,o.
Jw 2 0 ^

s?'%i"%

JIKSS^i
?'Bggl3!rij^|

RB: AJ33174

IN THE County COURT OF OMAHA, DOUGLAS COUNTY, NEBRASKA

STATE OF NEBRASKA)

)

SEARCH WARRANT FOR
CELLULAR PHONE RECORDS

COUNTY OF DOUGLAS)
TO: OMAHA, NEBRASKA POLICE OFFICER Derek MOIS.

This matter came on for hearing on the 8th day of May, 2018, upon the sworn
application and affidavit for issuance of a search warrant of Officer Derek MOIS, #1573
and the Court, being fully advised in the premises finds as follows:
That the Court has jurisdiction of this matter pursuant to the Sections 29-812,
Nebraska Revised Statutes, 1943, as amended.

That based upon the sworn affidavit and application of issuance of a search
warrant of Derek MO!S dated the 8th day of May, 2018, that there is probable cause to
believe that located at US Cellular ,AND/OR the authorized or designated agent for the
custodian of records of the electronic communications sen/ice provider, the following
described records and other information for 402-850-5695, to-wit:

A. The following customer or subscriber account information for each account

registered to or associated with 402-850-5695 for the time period December 1st 2016 to
February 14th 2017 in Centra! Standard Time (CST):
1. Subscriber names, user names, screen names, or other identities;

2. Mailing addresses, residential addresses, business addresses, email
addresses, and other contact information;

FILED

3. Local and long distance telephone connection recQp^yfr^tri^j^g^^n
times and durations;

JUN 3 0 2018

4. Length of service (including start date) and types of services utHized;
' ©MAWW: N RAS^'

RB: AJ33174

5. Telephone or instrument number or other subscriber number or identity,
including any temporarily assigned network address; and

6. Means and source of payment for such service (including any credit card or
bank account number) and billing records.
B. All records and other information relating to account(s) and time period in Part A,
including:

1. Records of user activity for any connections made to or from the account,
including the date, time, length, and method of connections, data transfer
volume, user name, and source and destination Internet Protocol address(es);
2. All available tol! records to include cal! detail, SMS detail, data sessions, per
call measurement data (PCMD), round trip time (RTT), NELOS, celt site and cell
site sector information and cellular network identifying information (such as the
1MS1, MS1SDN, IMEI, ME1D, or ESN);
3. Non-content information associated with the contents of any communication
or file stored by or for the account(s), such as the source and destination email
addresses and IP addresses;

4. Correspondence and notes of records related to the account(s).
5. Current cellular site list, in electronic format, which includes any and all
markets, switches, and areas the target phone utilized during the time period
listed above.

AND, if found, to seize and deal with the same as provided by law, and to make
return of this warrant to me within ten days after receiving the requested information set
forth in Part A and Part B.

YOU ARE, THEREFORE, ORDERED, pursuant to Nebraska Revised Statue
29-813 that US Cellular will, within fourteen (14) days of the date_ofj:h|s Order, turn
over to the Omaha, Nebraska Police Department the reco^^^r^S'Wwei^W as
set forth in Part A and Part B.

JUN 2 0 2018
IT IS FURTHER ORDERED, that any other person, device, computer, and/or
number that is in communication with the target device shall
QMANAt NEBRA.SKA

RB: AJ33174

crimJna! investigation and shall require the disclosure of the data in Part A and Part B
from any provider of electronic communications services as defined by Nebraska

Revised Statute 86-277. This shall also include the target device roaming or utilizing
any electronic communications service provider's network and/or antennas, regardless
of carrier or provider,

IT IS FURTHER ORDERED that US Cellular or any other person/company, shall
not disclose the existence of this search warrant, or the existence of the investigation, to
the listed subscriber or to any other person, unless and until authorized to do so by the
Court.

!T IS FURTHER ORDERED, that execution of the Search Warrant be forthwith
during the daytime hours.

IT IS FURTHER ORDERED, that Omaha, Nebraska Police Officer Derek MOES ,
make return of this Search Warrant to me within ten days after receiving the requested
information from the electronic communications service provider.
Given under my hand this 8th day of May, 201 8.

Judge of the Douglas County Court

Rl£D

CRlM/mAFDMSfON
JUN ^ 0 20t8

aiSff

PMA&<:'

